               U.S. Department of the Interior
                    Office of Inspector General

                          Audit Report

Department of the Interior




 Hall of Nations – The Tribes the Office of Special Trustee Serves




Chavarria, Dunne, and
 Lamey LLC Contract
    Deliverables

Report No. Q-CX-MOA-0005-2006

                     June 2008
Memorandum

To:            Secretary Kempthorne

From:          Earl E. Devaney
               Inspector General

Subject:       Transmittal of Report of Investigation, Audit Report and Management Advisory:
               Chavarria, Dunne & Lamey, Office of Special Trustee Contractor

        In May 2006, the Office of Inspector General (OIG) issued a Report of Investigation
concerning allegations of improper relationships between senior Office of Special Trustee (OST)
officials and the principals of Chavarria, Dunne & Lamey (CD&L), a contractor for OST (copy
attached). What we found was that over a period of years, OST awarded and continued to extend
and expand, without competition, a contract with CD&L for trust fund accounting and risk
management services, while the three most senior ranking officials in OST engaged in extensive
outside social activity with the executives of CD&L. This activity included the exchange of gifts
of meals and drinks, taking out-of-town trips to a major golf event, playing golf together on
almost a weekly basis, and exchanging hospitality at personal residences. We also found that
OST contract personnel felt pressured by these senior OST officials to continue to award work to
CD&L. The appearance of preferential treatment in this case was palpable.

        We directed the Report of Investigation to Chief of Staff, Brian Waidmann, for whatever
administrative action was deemed appropriate. We also recommended a thorough review of both
the performance of the CD&L contracts as well as any pending or future awards to CD&L.

        Almost immediately after your arrival as Secretary of the Interior, the Special Trustee
issued letters of reprimand (to be retained in the officials' OPF for one year or less) and directed
the three senior officials to take some additional ethics training, presumably, without your
knowledge.

        Since we expected to see little, if any, further action by OST concerning the CD&L
contracts, we launched an audit to determine the quality and timeliness of CD&L contract
deliverables, and to review sole-source awards to CD&L. While we concluded this audit in
April 2007, we suspended the issuance of a report until our investigation into several other
allegations of impropriety concerning OST officials and review of CD&L contract awards and
deliverables could be completed.
      With this memorandum, I am transmitting the Audit Report, Report of Investigation and
our Management Advisory (stemming from our review) concerning these various concerns to
you.

       In short, our audit found that CD&L has been the beneficiary of "time and material"
contracts which are so poorly written and monitored that contracting officials were unable to
substantiate that deliverables were received. We found one contract in which CD&L was fully
paid without providing all deliverables, and we found pervasive irregularities in sole-source
contracting.

        Our review of the pre-award process for a contract awarded to CD&L revealed that OST
did not plan its contract requirements adequately or timely; the National Business Center made
errors on the contract; and the contractor incorrectly billed improper labor categories.

         Our investigation determined that allegations received in 2006 concerning CD&L's
failure to produce required deliverables were unsubstantiated. However, our investigation also
revealed that one of the same three senior OST officials continued to improperly influence the
award of contracts to CD&L, and a perpetuate pattern of preferential treatment toward CD&L
that, if allowed to continue, will ensure that CD&L (and its acquiring company Clifton
Gunderson) will continue to win even competitive OST contracts in perpetuity, as "past
performance" (which applies only to CD&L) is being considered significantly more important
than price. In the most recent award, the lower bidder recommended by an evaluation team lost
the contract to CD&L (dba Clifton Gunderson) when the recused official urged the evaluation
team to reconsider CD&L as a local company and as having experience. It appears that no
amount of ethics training will bring about lessons learned when it comes to the relationship of
OST officials to this particular contractor.

        Considered separately, these individual reports may not warrant severe administrative
action. But considered together, the continuous awarding of contracts to CD&L perpetuates
permanent preferential treatment and creates an air of impropriety that generates a stream of
seemingly endless allegations. Absent meaningful corrective action, the OIG will be
continuously called upon to investigate these issues. We cannot continue to dedicate our scarce
resources to a problem that rebuffs solution.

        Frustrated by a lack of accountability in this regard, I bring these matters to your direct
attention and urge you to ensure that appropriate action is taken to rectify the conduct of OST
officials and restore the integrity of the OST contracting process.

        We would appreciate a written response from the appropriate officials to these reports
outlining their intended action, particularly in response to the recommendations contained in the
Audit Report, and the suggestions contained in the Management Advisory. We would also like
to be advised of any corrective administrative action taken in response to these reports.

       If you have any questions regarding any of these reports, please do not hesitate to contact
me at (202) 208-5745.

Attachments
                       EXECUTIVE SUMMARY
                                     WHAT WE FOUND
   DOI COULD NOT
                                     The Department of the Interior (DOI) could not consistently
   CONSISTENTLY
                                     demonstrate that it received full value for money spent or
   DEMONSTRATE IT RECEIVED
                                     substantiate the receipt of timely and quality deliverables on
   FULL VALUE FOR MONEY
                                     contracts with Chavarria, Dunne & Lamey LLC (CD&L).
   SPENT OR SUBSTANTIATE
                                     The Office of Inspector General (OIG) made this
   THE RECEIPT OF TIMELY
                                     determination after reviewing 8 of the 14 CD&L contracts
   AND QUALITY
                                     with various Departmental agencies. In most contracts we
   DELIVERABLES ON CD&L
                                     reviewed, either records were not available for our
   CONTRACTS.
                                     evaluation or the contracts contained ill-defined
                                     requirements or the contracts were insufficiently monitored.
We found:

        Four cases, totaling approximately $5 million, where DOI could not demonstrate that it
        received full value for money spent on contracts with CD&L because the contracts
        contained ill-defined requirements or were insufficiently monitored.

        Two cases, valued at $201,764, where DOI could not substantiate the receipt of timely
        and quality deliverables from CD&L.

DOI suffered an increased vulnerability to waste because
most CD&L contracts were time-and-materials contracts            WHY WE DID
in which DOI paid CD&L based on its level of effort              THIS AUDIT
rather than completion or progress toward completion of
                                                                 We decided to audit DOI
defined contract deliverables. Time-and-materials
                                                                 contracts with CD&L after the
contracts are the least desirable contracting type because       OIG received allegations that
they provide no positive profit incentive to the contractor      CD&L was paid for deliverables
to control costs or promote labor efficiency. In three           not received. These allegations
cases, we found that DOI did not properly document its           followed publication of the OIG
determination and findings that no other contract type was       Office of Investigation’s May
suitable. In two of these contracts, we concluded that the       2006 report concerning senior
use of time-and-materials contracts was inappropriate.           OST officials.

We found that when using time-and-materials contracts,           Our audit objective was to
DOI did not always sufficiently describe the scope of            determine the timeliness and
                                                                 quality of CD&L contract
work for the contractor to perform. Additionally, DOI did
                                                                 deliverables. We expanded work
not provide adequate government oversight over the               to address sole-source contract
contractor’s performance to give reasonable assurance that       awards to CD&L.
the contractor was using efficient methods and cost
controls. We found the following deficiencies in
monitoring of CD&L contracts:


                                                i
       Contracting officials failed to track CD&L’s progress toward completion of deliverables
       as part of contract monitoring.

       On one contract, contracting officials failed to enforce contract provisions that would
       have allowed for better monitoring of CD&L’s progress in completing deliverables.

       In the absence of clearly defined contract deliverables, CD&L provided “deliverables”
       based on responses to specific requests from departmental personnel. In many cases,
       these requests inappropriately came from personnel other then the contracting officer and
       contracting officer’s technical representative (COTR).

       Department personnel did not timely review contract deliverables, resulting in additional
       delays.

       Contracting officials told us they felt pressured by senior managers to continue to award
       work to CD&L and to approve invoices without review or validation. For example, one
       COTR told us that a senior OST manager had directed the COTR to “simply approve the
       CD&L invoices without reviewing them” and to “not ask any questions.”

During our audit, we found inappropriate sole-source awards of work to CD&L. While the
Federal Acquisition Regulation (FAR) allows the award of sole-source contracts, contracting
officers must justify them in writing and obtain required approvals. Our audit disclosed:

       Three sole-source contracts with incomplete, unsupported, or missing justifications.

       Additional work improperly sole-sourced by modifying an existing contract. The contract
       was modified 57 times, increasing its value from $150,000 to approximately $6.6 million
       (a 4,300 percent increase) and extending the period of performance by over 5 years.

       A contract awarded to CD&L largely because it was the “incumbent contractor,” despite
       having received a significantly less expensive proposal from an acceptable bidder with a
       comparable technical score.

Because of the issues we found, we referred one OST contract to our Office of Investigations and
initiated a Department-wide audit on sole-sourced contracts.

In its response to our draft report, DOI disagreed with our overall conclusions regarding
deliverables associated with the CD&L contracts and the use of sole-source contracts. DOI
stated that it received and continues to use many quality deliverables received as a result of the
contracts reviewed and that the contractor was paid for hours expended to produce those
deliverables. With its response, OST provided a significant volume of documentation on CD&L
contracts that we reviewed before preparing this final report. This documentation supported that
CD&L did perform work on these contracts and task orders. However, our overall conclusions
remain that (1) DOI could not consistently demonstrate that it received full value for money
spent; (2) DOI could not consistently substantiate the receipt of contract deliverables; and (3) we



                                                 ii
could not always determine what was to be delivered by the contractor because of ill-defined
contract requirements.

DOI also asserted that sole-source work given to CD&L was properly awarded in accordance
with the FAR. We stand by our original conclusions concerning sole-source contracting. DOI
provided a list of improvements implemented over the last 2 years. However, these controls
were not in place during the time frame of contracts we reviewed and, therefore, we did not test
their effectiveness. A summary of management’s comments and our responses are included in
Appendix 6.

The issues addressed in this report occurred because of the failure of contracting officers and
COTRs to execute their responsibilities. This failure resulted in a contracting environment that
lacked adequate controls and accountability, exposing DOI to an unacceptable risk of fraud and
waste. Our report provides seven recommendations to address the issues we found. DOI did not
concur with Recommendation 3 in the draft report and we modified the recommendation based
on management’s comments. DOI partially concurred with recommendation 5 and concurred
with the remaining recommendations.




                                               iii
                                 TABLE OF CONTENTS
INTRODUCTION ............................................................................................... 1

         Background ............................................................................................................1

RESULTS OF AUDIT ......................................................................................... 3

         Receipt of Contract Deliverables ..........................................................................3

         Use of Time-and-Materials Contracts ..................................................................5

         Inappropriate Sole-Source Contracting ..............................................................8

RECOMMENDATIONS .................................................................................... 12

APPENDICES .................................................................................................. 16

         1. Schedule of Monetary Impact .......................................................................16

         2. Objective, Scope, and Methodology .............................................................17

         3. Acronyms and Abbreviations .......................................................................19

         4. Contract Universe ..........................................................................................20

         5. Status of Audit Recommendations ...............................................................21

         6. Department Comments and OIG Responses...............................................22




                                                                   iv
                               INTRODUCTION
This report presents the results of our audit of certain Department of the Interior (DOI) contracts
with Chavarria, Dunne & Lamey LLC (CD&L). The objective of our audit was to determine the
timeliness and quality of CD&L contract deliverables. We expanded the scope of work to
address contracting issues that came to our attention, including inappropriate sole-source
contracting activities.

BACKGROUND
The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412)
created the Office of the Special Trustee for American Indians (OST) to improve the
accountability and management of Indian funds held in trust by the U.S. Government. OST has
used contractors to perform many of its trust reform activities. In fiscal years 2004 and 2005,
OST allocated approximately $89.7 million, or nearly 21 percent, of its appropriated funds to
contracting.

In May 2006, the Office of Inspector General (OIG) released an investigative report titled
“Allegations Concerning Senior Officials of the Office of the Special Trustee for American
Indians.” This report concluded that senior OST officials had created an appearance of
preferential treatment toward CD&L by socializing, exchanging gifts, and exerting pressure on
OST contract staff. As part of that investigation, OIG investigators found that OST awarded —
without competition — approximately $6.6 million in contract work to CD&L. Specifically,
OST awarded a 1-year contract to CD&L for $150,000 and then modified the contract more than
50 times, which increased its value to over $6.6 million. After issuing this report, the OIG
received allegations that CD&L was paid for deliverables that were never provided.

Because of the issues raised by the Office of Investigations and the continuing allegations, we
conducted an audit of DOI contracts with CD&L. We identified 14 contracts, totaling
approximately $44.6 million that DOI awarded to CD&L from September 1999 to September
2006. We include a complete list of contracts in Appendix 4, which reflects eight contracts with
OST, three contracts with the Office of Historical Trust Accounting (OHTA), and three contracts
with the Bureau of Indian Affairs (BIA).

OST, BIA, the National Business Center (NBC), and GovWorks contracting officers issued and
administered these contracts. NBC and GovWorks are entities within DOI that provide
contracting services. A wide selection of contract types is available to provide flexibility in
acquiring the variety and volume of supplies and services required by Departmental agencies.
Contract types are grouped into two broad categories:

       fixed-price, where the contractor has full responsibility for performance costs and
       resulting profit or loss and




                                                 1
       cost-reimbursement, where the contractor has minimal responsibility for performance
       costs and the profit is fixed.

The latter category includes time-and-materials contracts where contractors are paid for materials
at cost and for direct labor hours at specified, fixed hourly rates. Time-and-materials contracts
may be used only (1) when it is not possible to accurately estimate the extent or duration of the
work or to anticipate costs with any reasonable degree of confidence; and (2) after the
contracting officer determines that no other contract type is suitable.

Contracting officers are required to promote full and open competition in the award of contracts,
which ensures that the U.S. Government receives the best value for its money. The contracting
officer’s technical representatives (COTRs) are responsible for monitoring deliverables to ensure
they are of sufficient quality and are received on time. The COTRs work with contracting
officers to oversee contractors.

In certain situations, contracting officers may award contracts without competition. Such
contracts are referred to as sole-source awards and may be used when only one source exists that
can meet requirements or when an unusual and compelling urgency exists. Contracting officers
must justify any sole-source award decision in writing and obtain prior approval.




                                                2
                            RESULTS OF AUDIT

DOI could not consistently demonstrate that it received full value for money spent or substantiate
the receipt of timely and quality deliverables on contracts with CD&L. In most contracts we
reviewed, either records were not available for our evaluation or the contracts contained ill-
defined requirements or the contracts were insufficiently monitored. Additionally, because OST
inappropriately used time-and-materials contracts, it was exposed to unnecessary levels of risk.
We also found that contracting officials improperly awarded sole-source work to CD&L. All of
these issues occurred because contracting officers and COTRs failed to adequately execute their
responsibilities.

                           RECEIPT OF CONTRACT DELIVERABLES
OST stated that it received, and continues to use, many quality deliverables received as a result
of the contracts we reviewed and that the contractor was paid for hours expended to produce
those deliverables. We do not dispute that CD&L worked on these contracts and task orders.
However, our overall concerns were that (1) DOI could not consistently demonstrate that it
received full value for money spent; (2) DOI could not consistently substantiate the receipt of
contract deliverables; and (3) we could not always determine what was to be delivered by the
contractor because of ill-defined contract requirements.

                                              We found four cases where DOI could not demonstrate
    DOI Could Not Demonstrate                 that it received full value for money spent on contracts
    Full Value for Money Spent                with CD&L because the contracts contained ill-defined
                                              requirements or were insufficiently monitored.

        Contract CMK99000001 task order 9: In September 2001, CD&L was awarded this
        $1.2 million time-and-materials task order to complete 13 desk operating procedures
        (DOPs) for OST. Ultimately, OST allowed the task order to expire in September 2004
        after paying CD&L $887,840. We found no evidence that CD&L performed any work
        on 5 of the 13 DOPs in the 3 years the task order was active. Additionally, while we
        found evidence that CD&L worked on the remaining eight DOPs, we could not
        substantiate that CD&L delivered acceptable final products for any of the DOPs. At least
        three of these eight DOPs were not completed under this task order because OST later
        contracted with CD&L again to complete them.

        Contract NBCTP040428: In September 2004, CD&L was awarded this $277,675 time-
        and-materials contract to complete two DOPs 1 for OST that had not been completed
        under contract CMK99000001 task order 9. In January 2005, the contract was amended
        to include development of a third DOP and to increase the price by $50,000 to $327,675.
        Ultimately, OST terminated the contract “for convenience” in April 2005 after paying
        CD&L the full $327,675 contract amount plus an additional $20,000 in close-out costs.
1
  Two of the thirteen DOPs under contract CMK99000001 task order 9 were combined into one DOP. As a result,
these two DOPs actually represent the three DOPs we know were not completed under task order 9.


                                                     3
      At contract termination, CD&L had delivered only one of the three DOPs. OST prepared
      a $400,000 requisition to modify the contract so CD&L could complete the DOPs, but
      then decided to cancel the requisition and complete the DOPs internally.

      Contract CMK99000001 task order 10: In July 2001, CD&L was awarded this $2.2
      million time-and-materials task order for risk management services. At that time,
      managers knew only that they wanted to start a risk management program and could not
      specifically define deliverables. Therefore, the contract included one deliverable to
      provide materials “as requested” and another to provide “tools.” OST provided us with
      documentation that supported that CD&L worked on this task order. However, the
      transmittal documentation supporting this documentation stated that the items provided
      were in response to specific requests from OST personnel instead of in response to the
      contract’s stated deliverables. We could not find contract modifications adding these
      “requests” as deliverables to the contract. Ultimately, OST allowed the task order to
      expire in December 2003 after paying CD&L over $2.2 million. In the absence of clearly
      defined deliverables, we could not assess the contractor’s performance on this task order.

      Contract SMK00050058: In January 2005, CD&L was awarded this $987,426 time-
      and-materials contract for risk management services. Again, OST provided us with
      documentation that supported that CD&L worked on this contract. However, the
      transmittal documentation supporting this documentation stated that the items provided
      were in response to specific requests from OST personnel instead of in response to the
      contract’s stated deliverables. We could not find contract modifications adding these
      “requests” as deliverables to the contract. Ultimately, OST allowed the contract to expire
      in December 2006 after the paying the contractor over $1.9 million. In the absence of
      clearly defined deliverables, we could not assess the contractor’s performance on this
      task order.

We concluded that DOI could not demonstrate that it received appropriate value for nearly
$5 million spent on these contracts. We classified (1) $887,840 spent on contract
CMK99000001 task order 9; (2) $1,957,810 spent on contract CMK99000001 task order 10; (3)
$208,837 spent on NBCTP040428; and (4) $1,935,615 spent on contract SMK00050058 as
wasted funds (see Appendix 1).



                                              We found two cases where DOI could not
   DOI Could Not Substantiate Receipt         substantiate the receipt of timely and quality
   of Timely and Quality Deliverables         deliverables from CD&L.


      Contract CMK60099013: In September 1999, CD&L was awarded this $87,464 fixed-
      price contract to perform organizational capacity reviews on eight Tribal government
      accounting systems for BIA. In January 2000, the contract was amended to delete two of
      the deliverables and to decrease the price by $21,800 to $65,664. BIA was unable to
      provide any documentation that these reviews were completed or the deliverables



                                              4
       provided. Subsequent to the issuance of our draft report, however, CD&L provided us
       copies of the organizational reviews it had performed.

       Contract TSPR02REQ57: BIA could not substantiate receipt of deliverables for this
       contract because it could not locate the contract file. Because the file was not available
       for our review, we classified the $136,100 spent on this contract as questioned costs.

                       USE OF TIME-AND-MATERIALS CONTRACTS
DOI suffered an increased vulnerability to waste because most CD&L contracts were time-and-
materials contracts. Under FAR, the contractor does not have to complete work successfully or
provide stated deliverables in order to obtain payment; rather the contractor is paid for the hours
devoted to the task regardless of the outcome. The contractor is only required to use its best
efforts to provide the requested goods or services (i.e. deliverables) at the stated ceiling price. If
the contractor performs work pursuant to the contract, the contractor is entitled to be reimbursed
for labor at agreed-upon rates. If the services delivered do not meet the contract requirements
and the government exercises its right to have the contractor correct the deficiencies, the
government pays the additional labor and material costs, excluding the portion of the labor rate
attributable to profit (FAR 52.246-6(f)).

Time-and-materials type contracts are the least desirable contracting type because, according to
FAR 16.601(b)(1), they provide no positive profit incentive to the contractor to control costs or
promote labor efficiency. FAR 16.601(b) states that a time-and-materials contract type may be
used only when it is not possible at the time of placing the contract to estimate accurately the
extent or duration of the work or to anticipate costs with any reasonable degree of confidence.

                                         To limit the risk under time-and-materials contracts, the
Lack of Clear Scope of Work              government should not award a contract or task order
and Objectives                           unless the overall scope of the effort, including the
                                         objectives, has been sufficiently described to allow
                                         effective government oversight of the effort. In at least two
cases, the overall scope of the effort, including the objectives, had not been sufficiently described
to allow effective government oversight of CD&L’s efforts. As discussed previously, OST
failed to clearly define deliverables for contract CMK99000001 task order 10 and contract
SMK00050058. These large dollar contracts included such vague deliverables as “provide
materials as requested” and “provide tools.” One COTR associated with the task order told us
that the deliverables were “vague” and had to be “inferred.”




                                                  5
   Lack of Determination and              FAR states that a time-and-materials contract may be
   Findings Statements                    used only after the contracting officer executes a
   Supporting Use of Time-and-            “determination and findings” statement that indicates no
   Materials Contracts                    other contract type is suitable. We found no
                                          “determinations and findings” statement supporting
                                          contract CMK99000001 task order 9, contract
NBCTP040428, and contract SMK00050058. Based on the defined deliverables in contract
CMK99000001 task order 9 and contract NBCTP040428, we concluded that the use of the time-
and-materials contract type was inappropriate and unnecessarily exposed the government to an
increased vulnerability to waste. For example, for contract NBCTP040428, the contracting
officer wrote that the contract was very well written on what the contractor must complete and
the time frames for completion. Therefore, we question why the contracting officer chose a
time-and-materials type contract that is to be used only when it is not possible to accurately
estimate the extent or duration of the work.

One way to decrease the risks of time-and-materials contracts is to convert to less risky contract
types in follow-on efforts. The FAR requires the “determination and findings” statements for
follow-on contracts to reflect why knowledge gained from the previous acquisitions could not be
used to further refine requirements and acquisition strategies in a manner that would enable
purchase on a fixed-price basis. Contracts NBCTP040428 and SMK00050058 were follow-on
contracts. In the absence of a “determination and findings” statement, we were unable to
evaluate why the contracting officer selected time-and-materials as the best contract type instead
of converting them to fixed price.



 Inadequate Government                   Because a time-and-materials contract provides no
 Oversight                               positive profit incentive, the FAR requires appropriate
                                         government oversight of contractor performance to give
                                         reasonable assurance that efficient methods and effective
cost controls are being used. The government should ensure up-front in its acquisition planning
process that it has sufficient resources to manage the time-and-materials contract and that those
resources are identified. Our audit demonstrated that contracting officers and COTRs did not
employ adequate oversight to protect the government from potential waste and abuse. A lack of
appropriate government oversight of contractor performance heightened OST’s exposure to
waste in these contracts. We found the following issues related to the monitoring of CD&L’s
time-and-materials contracts:

       Failure to Track Deliverables: OST often failed to track the contractor’s progress
       toward completion of deliverables as part of contract monitoring. For example, for
       contract CMK99000001 task order 10, two OST COTRs stated that they did not consider
       tracking important because they believed that work was progressing satisfactorily. One
       said, “No one ever asked me if deliverables were not being delivered; it was never an



                                                 6
issue.” As a result, OST does not have a complete record of what it received for the $2
million paid on that task order. OST could not substantiate it received completed
versions of any of the 13 DOP deliverables under contract CMK99000001 task order 9,
contrary to its management’s comments, because it did not track receipt of the
deliverables.

Failure to enforce contract requirements: On contract NBCTP040428, the COTR
failed to enforce contract provisions that would have allowed him to better monitor
CD&L’s progress in completing deliverables. The contract required that CD&L (1)
provide a written work plan for each task and phase of work, including an analysis of
planned hours by labor category; and (2) submit, as work progressed, biweekly invoices
that detailed the time each contractor employee spent on each subtask or phase of work.
These contract requirements provided a basis for the COTR to monitor CD&L progress
in developing deliverables. However, CD&L never provided the detailed written work
plan and did not submit invoices that complied with the contract requirements. As a
result, the COTR could not adequately monitor the progress of work. The COTR failed
to follow the contracting officer’s instructions to reject invoices when contract terms
were not met. Had the COTR enforced contract requirements, he may have detected the
lack of adequate progress in preparing the remaining DOPs before OST made full
payment on the contract. In its response to our draft report, OST stated that the payments
made on this contract were from appropriate invoices in accordance with the contract
terms and conditions; however, as described above, the invoices were not in accordance
with the contract.

Inappropriate Personnel Directing CD&L’s Work. In the absence of clearly defined
contract deliverables, CD&L provided “deliverables” based on responses to specific
requests from OST personnel. In many cases, these requests came from personnel other
than the contracting officer and were not executed through contract modifications. In our
opinion, these requests directed the work of the contractor and should have been
documented through contract modifications. FAR 43.102(a) states that “only contracting
officers, acting within the scope of their authority, are empowered to execute contract
modifications on behalf of the government. Other government personnel shall not – (1)
execute contract modifications; (2) act in such a manner as to cause the contractor to
believe that they have authority to bind the government; or (3) direct or encourage the
contractor to perform work that should be the subject of a contract modification.”
Additionally, many of these materials were delivered directly by CD&L to personnel
other than the contracting officer or COTR who have responsibility for managing the
contract.

Lack of timely review of deliverables: We found that OST’s own review process
contributed to contract inefficiencies. The written justification for follow-on contract
NBCTP040428 to complete two DOPs stated that delays in the completion of these
deliverables on the original task order were the fault of the government. Specifically,
OST did not timely review draft deliverables and, in some cases, required CD&L to make
changes to DOPs and then later required CD&L to change them back to the way they had
previously been. For example, one DOP chapter (approximately 40 pages long) was in



                                        7
       the OST review process for over 7 months.

       Undue influence from OST management: Contracting officials told us they felt
       pressured by senior OST managers to continue to award work to CD&L and to approve
       invoices without review or validation. For example, one COTR told us that a senior OST
       manager had directed the COTR to “simply approve the CD&L invoices without
       reviewing them” and to “not ask any questions.”

The contracting officers and COTRs did not ensure that the contractor made adequate progress
toward completing contract deliverables within the contract period and under the price ceiling.
In its response to the draft report, DOI stated that there was “no overpayment” because the
contractor was paid for a level of effort on a time-and-materials contract and that the COTR
approved the level of effort incurred by the contractor. We agree that under a time-and-materials
contract, the contractor was entitled to payment based on the hours worked. However, this does
not relieve DOI from the requirement to provide appropriate oversight of the contractor’s
performance. Lack of adequate oversight can lead to waste and abuse. If DOI determines that
the contractor is not making adequate progress it can take steps to encourage the contractor to
better perform, or as a last result, terminate the contract to prevent further waste.

One contracting officer told us that the contractor does not actually have to deliver the
deliverables as long as they are performing satisfactorily. She stated “We just pay them for time
spent working, not to actually produce a specific deliverable.” We question the contracting
officer’s ability to determine that the contractor was performing satisfactory in the absence of
appropriate monitoring and receipt of the stated contract deliverables. In the absence of effective
monitoring, OST paid CD&L in full on time-and-materials contracts in which it did not receive
stated deliverables and subsequently issued new contracts with CD&L to complete unfinished
work. In one case, CD&L did not even complete the deliverables in the follow-on contract,
although it was paid in full.

                     INAPPROPRIATE SOLE-SOURCE CONTRACTING
We found several instances where DOI inappropriately awarded additional work without the
competition required by the FAR. In three cases, OST and BIA sole-sourced contracts to CD&L
without adequate justification. Further, additional work was sole-sourced to CD&L by
modifying an existing contract to increase its scope. Finally, in one case, CD&L was selected
largely because it was the incumbent contractor.

                                                  We identified three contracts that were sole-
    Sole-Source Contracts Were Awarded            sourced to CD&L without adequate
    Without Adequate Justifications               “justifications for other than full and open
                                                  competition” (JOFOCs). JOFOCs must include
                                                  sufficient facts and rationale to justify the use
of the specific authority cited. While the FAR allows sole-sourcing of contracts, it also requires
the contracting officer to:

       justify in writing the requirement for sole-sourcing;


                                                8
       certify the accuracy and completeness of the justification; and

       obtain required approvals.

The following discussion addresses what we found by contract:

       BIA Contract CMK60099013. The JOFOC stated that only CD&L could perform the
       work because of its accounting experience with Tribal governments. However, the
       justification disclosed that the work was for attestation services to assist in the evaluation
       of internal controls. In our opinion, specific experience with Tribal governments was
       unnecessary, and most public accounting firms with local government audit experience
       could have performed this work.

       OST Contract CMK99000001. In October 1998, OST awarded CD&L a sole-source
       contract for professional accounting services. Contract documentation indicated that a
       JOFOC was signed in October 1998, but the contract file contained no copy of it.
       Without reviewing the JOFOC, we are unable to determine whether this contract was
       appropriately sole-sourced. However, in a related contract document signed in December
       1998, the contracting officer indicated that OST negotiated directly with CD&L primarily
       because the company had unique knowledge gained from its previous work for OST.

       OST Contract NBCTP040428. The JOFOC, which had legal sufficiency review
       documented, stated that CD&L was the only responsible source able to do the work
       because: 1) CD&L had already started work on the two DOPs from a previous contract;
       2) CD&L had become very knowledgeable of Indian trust business practices and the
       format required in presenting the written procedures; and 3) other contractors would
       require a lengthy learning curve. OST concluded that CD&L had the technical expertise
       to continue and that, if required to bring in a new vendor, the effort would be
       unacceptably delayed, which would result in substantial additional costs. However, per
       the JOFOC, DOPs are manuals which contain guidelines for the operations of trust
       financial processes. The JOFOC states that development of a DOP consists of the
       contractor discussing the financial trust process with OST department representatives
       and documenting what it is told. In our opinion, development of DOPs is not so unique
       that only one contractor could perform the work. It may have been more convenient to
       sole-source the work to CD&L since they had performed the work previously, but this
       contract should have been awarded through open competition, as required by the FAR.




                                                 9
                                           As previously reported in OIG’s Investigative Report
    Added Work Sole-Sourced                “Allegations Concerning Senior Officials of the
    Through Contract Modifications         Office of the Special Trustee for American Indians,”
                                           OST violated the FAR by inappropriately modifying
                                           an existing contract with CD&L 57 times as of
September 2005. These modifications significantly increased the contract value from $150,000
to approximately $6.6 million (a 4,300 percent increase) and extended the period of performance
by over 5 years.

Modifications to contracts are generally made to correct oversights or to address changes in
conditions from the original contract. They are appropriate to change administrative information
and may be appropriate to add a limited amount of new work to an existing contract. According
to the FAR, however, the contracting officer must, in certain cases, determine whether a
proposed change can be processed as a modification or whether the issuance of a new contract is
required. This determination must be made if a proposed modification alters the scope of the
contract, adds significant additional work or funding, substantially extends the period of
performance, or incorporates other major changes.

We concluded that only 10 of the                       Figure 1. Modifications (in millions) to
modifications, totaling approximately                        Contract CMK99000001.
$300,000 were allowable under FAR. The
remaining modifications were not allowable                             Allowable
because they were either outside the contract                         Under FAR
                                                                      $0.3 million
scope (42 modifications valued at                    Significantly         5%               Outside
approximately $4.4 million) or significantly          Increased                            Contract
increased the contract funding (5                      Funding                              Scope
                                                     $1.7 million                         $4.4 million
modifications valued at approximately $1.7               26%                                  69%
million).

Our analysis shows that 42
modifications, valued at approximately
$4.4 million, were for work outside the
original contract scope. NBC and BIA,
on behalf of OST, should have awarded
this work through open competition.
In one example, modifications totaling $2.2 million added risk management services to a
contract that did not originally include risk management. In 12 of the 42 modifications, OST did
attempt to justify added work, valued at $2.3 million, with JOFOCs. However, under FAR, OST
should have awarded the additional work as a separate contract and not as a modification to an
existing contract.

Five additional modifications, totaling approximately $1.7 million, significantly increased the
contract funding and, under FAR, should have been awarded as separate contracts. The value of
each of these five modifications was larger than the original $150,000 contract value.




                                                10
The current NBC contracting officer stated that the contract had been improperly modified
before she assumed responsibility for contract administration in January 2004.



                                     In the case of contract SMK00050058, OST appeared to
 Contract Sole-Source                have a full and open competition but effectively sole-sourced
 Awarded Under the Guise             the contract to CD&L. BIA, on behalf of OST, awarded this
 of Competition                      contract to CD&L largely because it was the incumbent
                                     contractor, despite having received a 57 percent lower cost
                                     proposal from an acceptable bidder, with a comparable
technical score. In addition, the lowest cost bidder met more proposal requirements than did
CD&L. We have referred this irregular contract award to our Office of Investigations.




                                               11
                  RECOMMENDATIONS

We recommend that the Director, NBC:

      1. Require procurement requisitions to clearly define the desired end product or
         outcome prior to beginning the solicitation process and to ensure contract statements
         of work are clear, with precisely defined deliverables and detailed contract
         monitoring plans.

                 DOI’s Response to the Recommendation:

                 DOI concurred with this recommendation and stated: NBC continues to
                 require OST managers to clearly define the desired end product or outcome
                 prior to beginning the solicitation process. In addition, one of the changes
                 implemented between OST and NBC over the past three years is more
                 effective acquisition planning. The program offices, with the assistance of the
                 OST Chief Contract Liaison, now work directly with the CO prior to the
                 requisitions being submitted to the NBC on any documentation that may need
                 clarification/correction which includes: statements of work, defining
                 deliverables, creating and/or revising monitoring plans, revising invoice
                 requirements, evaluation criteria, and any other phase of the acquisition
                 planning process. This working relationship is maintained throughout the
                 solicitation and award process.

                 OIG Analysis of DOI Response:

                 Based on DOI’s response, we consider this recommendation to be resolved
                 and implemented.

      2. Minimize the use of time-and-materials contracts. When time-and-materials contracts
         are necessary, NBC should (a) require that contractor work be clearly defined and
         closely monitored and (b) document a “determination and findings” statement in the
         contract file.

                 DOI’s Response to the Recommendation:

                 DOI concurred with this recommendation and stated: Contracting Officers are
                 directed by the FAR to minimize the use of time-and-materials contracts.
                 NBC, with the support of OST Senior Management, has already established
                 additional safeguards to minimize the use of time-and-materials contracts,
                 ensuring the required documentation supports the decision to use such
                 contracts. This recommendation and additional steps have already been
                 implemented. OST has also issued internal guidance where the Principal




                                             12
                 Deputy Special Trustee or the Special Trustee must approve use of time-and-
                 materials contracts prior to submittal to NBC.

                 OIG Analysis of DOI Response:

                 Based on DOI’s response, we consider this recommendation to be resolved
                 and implemented.

       3. Ensure that JOFOCs comply with FAR requirements. Additionally, ensure contract
          modifications are executed in compliance with FAR requirements.

                 DOI’s Response to the Recommendation:

                 DOI non-concurred with the recommendation in our draft report and stated:
                 Contract modifications are processed in accordance with FAR and the
                 required documentation is maintained in each file. To recommend no contract
                 be modified to sole-source additional work to the incumbent contractor is
                 unrealistic.

                 OIG Analysis of DOI Response:

                 Based on DOI’s response, we revised the recommendation to clearly state our
                 concern that all modifications comply with FAR requirements. Despite DOI’s
                 comments, we still believe that additional controls are necessary over contract
                 modifications to ensure FAR competition requirements are met. In our
                 opinion, if there were sufficient controls in place as DOI suggests, we would
                 not have found the problems we did during our audit. Therefore, we consider
                 this recommendation unresolved.

We recommend that the Special Trustee for American Indians:

       4. Require COTRs to adequately document work performed related to contract
          monitoring and invoice review. In addition, COTRs should ensure that contractors
          submit invoices in accordance with contract type and billing specifications.

                 DOI’s Response to the Recommendation:

                 DOI concurred with the recommendation and stated that OST is including
                 review of COTR files as part of its annual administrative program reviews.

                 OIG Analysis of DOI Response:

                 We consider this recommendation unresolved. Although DOI concurred, it
                 needs to provide additional information on actions taken or planned, including
                 target dates and titles of officials responsible for implementation.




                                             13
      5. Ensure inexperienced COTRs are not assigned contracts unless a more experienced
         COTR oversees their work and provides on-the-job training.

                 DOI’s Response to the Recommendation:

                 DOI partially concurred with the recommendation and stated: COTRs are
                 now required to have 40 hours of training on COTR duties and responsibilities
                 every two years. In addition, OST is including a review of COTR files as part
                 of its annual administrative program reviews.

                 OIG Analysis of DOI Response:

                 DOI’s proposed action does not address the underlying problem that this
                 recommendation was designed to address - inexperienced COTRs. Some
                 ongoing oversight - on more than an annual basis - over newly certified
                 COTRs is necessary to correct the problems identified in this audit report.
                 Therefore, we consider this recommendation unresolved.

We recommend that the Chief of Procurement, BIA:

      6. Ensure all contract files are properly maintained in accordance with document
         retention policies.

                 DOI’s Response to the Recommendation:

                 DOI concurred with the recommendation and stated: The Office of
                 Acquisition and Property Management is finalizing the Indian Affairs
                 National Policy Memorandum, Contract File Location, Organization and
                 Retention. The policy establishes file location, organization, and retention
                 requirements in a structured and systematic manner for all Indian Affairs
                 procurement offices. The policy is based on guidance contained in the
                 Federal and Departmental acquisition regulations and the Departmental and
                 Indian Affairs manuals. Once the award is made, the contract file will be
                 maintained in a central location readily available for contract administration,
                 review, or audit purposes. Indian Affairs will maintain a perpetual log that
                 will identify whether files are located on the premises or were sent to the
                 American Indian Records Repository or other facility for storage.

                 OIG Analysis of DOI Response:

                 Based on DOI’s response, we consider this recommendation to be resolved,
                 but not implemented.




                                              14
We recommend that the Special Trustee for American Indians and the Director, NBC:

       7. Take appropriate administrative actions to hold responsible officials accountable.

                  DOI’s Response to the Recommendation:

                  DOI concurred with the recommendation and stated: OST has moved
                  acquisition management to NBC and, in coordination with NBC, established
                  new acquisition processes. NBC holds contracting staff accountable for
                  ensuring full compliance of contracts. This accountability is one of the
                  elements in contracting personnel's annual NBC performance rating plan and
                  the performance is assessed annually. NBC suspends contracting officer
                  warrants when significant issues surface that questions their ability to issue
                  compliant contracting actions. Once suspended, warrants are not reissued
                  until a rigorous re-certification process is completed.

                  OIG Analysis of DOI Response:

                  Based on DOI’s response, we consider this recommendation to be resolved
                  and implemented.




                                               15
                                                                                                      Appendix 1



           SCHEDULE OF MONETARY IMPACT

                                                    WASTED                            QUESTIONED
          CONTRACT
                                                    FUNDS*                             COSTS**

CMK99000001
                                                               $887,840
TASK ORDER 9 (PAGE 4) 2


NBCTP040428 (PAGE 4) 3                                         $208,837


TSPR02REQ57 (PAGE 5)                                                                                     $136,100


CMK99000001
TASK ORDER 10 (PAGE 4)3                                      $1,957,810


SMK00050058 (PAGE 4)                                         $1,935,615


                          TOTAL                              $4,990,102                                  $136,100

*Wasted funds are those funds that cannot be recovered.

**Questioned costs are those funds whose eligibility could not be clearly determined during the
audit since the costs were not supported by adequate documentation.

2
  On contract CMK99000001, we reviewed deliverables associated with only tasks 9 and 10. We did not evaluate
the remaining task orders and did not determine what portion, if any, of those contract costs should be classified as
wasted or questioned.
3
  We assumed that each of the two original deliverables would be worth one-half of the original contract value of
$277,675 or approximately $138,838 each. We calculated the overpayment by subtracting the value of the one
deliverable received ($138,838) from the total payment on the contract ($347,675), for the total of $208,837 wasted.



                                                          16
                                                                                     Appendix 2


      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine the timeliness and quality of CD&L contract
deliverables. We applied our objective to both fixed price and time-and-materials contracts with
CD&L. However, our conclusions differed based on the type of contract as follows:

       ¾ Fixed Price Contracts: The government pays the contractor a fixed price for the
         deliverables identified in the contract regardless of whether the contractor’s cost falls
         short of or exceeds the contract price. To receive payment, the contractor is required
         to provide the deliverable. When we could not confirm the delivery of identified
         deliverables on fixed price contracts, we classified payments made to CD&L as
         “questioned costs.”

       ¾ Time-and-Materials Contracts: The government pays the contractor based on per-
         hour labor rates as well as reimbursing the contractor for other direct costs such as
         travel and materials. The contractor is expected to make a good faith effort to meet
         the government’s needs within the ceiling price. If the contractor performs work
         pursuant to the contract, the contractor is entitled to be reimbursed for labor at agreed
         upon rates, regardless of whether the contractor provides identified deliverables. If
         the deliverables do not meet the contract requirements, the government has the right
         to have the contractor correct deficiencies; however, the government must pay the
         additional labor and material costs, excluding the portion of the labor rate attributable
         to profit. When we could not confirm the delivery of identified deliverables on time-
         and-materials contracts, we classified payments made to CD&L as “wasted funds”
         rather than questioned costs.

To meet our objective, we:

       ¾ asked each DOI bureau for a list of any CD&L contracts it awarded between
         September 30, 1999, and September 30, 2006;

       ¾ searched the Federal Procurement Data System for all DOI contracts where CD&L
         was a contract party;

       ¾ compiled a universe of 14 contracts, with a total value of approximately $44.6
         million, between DOI bureaus and CD&L;

       ¾ reviewed FAR requirements for methods of contracting and ordering and determined
         whether DOI complied with those requirements;

       ¾ interviewed appropriate BIA, NBC, OHTA, and OST officials in Albuquerque, NM;
         Lenexa, KS; Herndon, VA; and Denver, CO; and



                                               17
                                                                                      Appendix 2


       ¾ planned to review documents maintained by the contracting officers and COTRs for
         all 14 identified contracts.

We also gained an understanding and evaluated controls over the identification, tracking and
receipt of contract deliverables. We identified lack of contract monitoring by contracting
officers and COTRs as a significant internal control weakness. Our findings concerning internal
controls are included in the section of the report titled “Inadequate Government Surveillance.”
OST and NBC provided us a list of improvements implemented over the last 2 years. However,
these controls were not in place during the time frame of contracts we reviewed. Therefore, we
were unable to validate their implementation or test their effectiveness during this audit.

After our preliminary review of five of the contracts and learning that three additional contract
files were missing, we noted a clear pattern of absent and incomplete documentation that
significantly complicated, in many cases, our evaluation of contractor performance. Based on
these preliminary results, we chose to end our audit work and report our findings to date. We
reviewed the three largest OST contracts; the only BIA contract for which records were
available; and the largest OHTA contract.

During our audit, BIA identified three contracts with CD&L, valued at approximately $183,000,
for which it could not locate the contract files. These included: Contract K6002K1413, Contract
TSPR02REQ57, and Contract NBCDOP00346. BIA informed us that the contract file for
contract K6002K1413 was located after we issued our draft report. OST informed us that
NBCDOP00346 was actually an OST purchase order that was available for our review. Given
the relative low dollar value of these contracts, we chose not to extend our audit to evaluate these
contracts.

Our work was limited to reviewing documentation available from contracting officers, COTRs,
and program officials. We did not expand our work to obtain documentation directly from
CD&L. However, subsequent to issuance of our draft report, CD&L provided our Office of
Investigations with documentation supporting selected deliverables that it provided to DOI. We
reviewed the available documentation and modified our conclusions as appropriate.

We expanded the scope of work to include sole-sourcing issues when we learned of
inappropriate sole-source awards of work to CD&L.

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Work was performed from September 2006 to August
2007.




                                                18
                                                           Appendix 3




   ACRONYMS & ABBREVIATIONS




BIA     Bureau of Indian Affairs
CD&L    Chavarria, Dunne & Lamey LLC
COTR    Contracting Officer’s Technical Representative
DOI     Department of the Interior
DOP     Desk Operating Procedures
FAR     Federal Acquisition Regulation
JOFOC   Justification for Other than Full and Open Competition
NBC     National Business Center
OHTA    Office of Historical Trust Accounting
OIG     Office of Inspector General
OST     Office of the Special Trustee for American Indians




                        19
                                                                                              Appendix 4

                             CONTRACT UNIVERSE
                                       Contracts Reviewed
                      Contract        Contract     Contract   Contract
Count    Agency                                                                       Scope of Work
                      Number          Amount        Dated      Closed
                                                                           Provide expert accounting and
  1        OST     CMK99000001        $6,560,179   10/16/98   06/30/05     consulting services to assist and
                                                                           support litigation efforts.
  2        OST     NBCTP040428          $347,675   09/23/04   04/08/05     Complete three DOPs.
                                                                           Provide advice and assistance in
                                                                           development and implementation of
  3        OST     SMK00050058        $1,935,615   01/10/05   12/31/06
                                                                           comprehensive risk-based
                                                                           management tools and controls.
                                                                           Perform accounting services for
                                                                           Indian trust account reconciliation,
  4       OHTA     40992             $22,768,146   02/01/05   01/31/07
                                                                           interest recalculation, special deposit
                                                                           accounts, and consultant services.
                                                                           Perform six organization capacity
  5        BIA     CMK60099013           $67,897   09/28/99   03/17/00
                                                                           reviews.
              Contracts Reviewed $31,679,512
                            Contract Files Not Available for Review
                      Contract        Contract     Contract   Contract
Count    Agency
                      Number          Amount        Dated      Closed                 Scope of Work
  1        BIA     K6002K1413             $9,248   06/13/00   Unknown      Unknown – Contract not available.
  2        OST     NBCDOP00346           $38,015   04/16/01   Unknown      Unknown – Contract not available.
  3        BIA     TSPR02REQ57          $136,100   09/20/02   Unknown      Unknown – Contract file missing.
      Contract Files Not Available     $183,363
                                     Contracts Not Reviewed
                      Contract        Contract     Contract   Contract
Count    Agency
                      Number          Amount        Dated      Closed                 Scope of Work
                                                                           Reconcile and provide adjusting
  1        OST     NBCTC040049          $175,000   09/30/04   03/31/06
                                                                           entries to three Indian trust accounts.
                                                                           Provide a staff consultant to provide
  2        OST     PO5492                 $2,440   06/20/05   07/30/05     services to transition the Osage
                                                                           processes to OST.
                                                                           Modify account reconciliation tool to
  3        OST     NBCF06293             $19,430   04/20/06   07/14/06     accommodate hybrid record file
                                                                           structure.
                                                                           Evaluate the performance of Indian
  4        OST     43678                $295,567   06/29/05   Still Open
                                                                           fiduciary activities within DOI.
                                                                           Perform accounting services for
                                                                           Indian trust account reconciliation,
  5       OHTA     41874                $683,238   01/24/05   01/31/05
                                                                           interest recalculation, special deposit
                                                                           accounts, and consultant services.
                                                                           Perform accounting services for
                                                                           Indian trust account reconciliation,
  6       OHTA     85063             $11,526,685   12/28/01   12/31/04
                                                                           interest recalculation, special deposit
                                                                           accounts, and consultant services.
          Contracts Not Reviewed $12,702,360
                  Total Contracts $44,565,235




                                                   20
                                                                         Appendix 5


     STATUS OF AUDIT RECOMMENDATIONS

Recommendations        Status                         Action Required

                    Resolved and       No further response to the Office of Inspector
     1, 2, 7
                    Implemented        General is required for this recommendation.


                                       Reconsider the recommendation; provide a
                                       written response stating concurrence or non-
      3, 5           Unresolved        concurrence; and provide information on actions
                                       taken or planned, including target dates and title
                                       of the officials responsible for implementation.

                     Unresolved
                                       Provide additional information on actions taken
                     Management        or planned, including target dates and titles of
       4
                      concurred;       officials responsible for implementation.
                       additional
                  information needed

                                       No further response to the Office of Inspector
                                       General is required for this recommendation. The
                   Resolved – Not
       6                               recommendation will be referred to the Assistant
                    Implemented
                                       Secretary for Policy, Management and Budget for
                                       tracking of implementation.




                                       21
                                                                                                Appendix 6


                          DEPARTMENT COMMENTS
                            AND OIG RESPONSES

The following table summarizes the Department’s comments to the draft report and our response:

         Department Comment                                               OIG Response
                                               General Comments
OST stated that original contracting files were     OIG Investigative “Receipt for Documents or Evidence”
removed by OIG Investigations in 2004 and OST       indicated that all records seized prior to October 24, 2003 were
was denied the opportunity to copy the files        copied by OST between October 24 and October 31, 2003.
before removal. Additionally, OST stated that       “Receipt for Documents or Evidence” records dated after
the files maintained by OIG Investigations were     October 2003, specifically state “OST made copies of the files
“completely dismantled and in disarray.”            before providing them to OIG.” Further, OIG maintained the
                                                    records in the order received from OST.
OST stated that OIG did not avail themselves of     The audit liaison refused to coordinate with OIG in a manner
OST’s audit liaison to facilitate and coordinate    that would ensure the audit’s integrity and independence. The
interviewing of OST personnel. As a result, OIG     audit liaison insisted on controlling whom OIG could meet
did not interview all appropriate individuals.      with, when interviews could take place, where interviews
                                                    would occur, and also insisted that an OST representative
                                                    would attend to oversight the interview. The audit liaison
                                                    stated that if we did not coordinate through him on these terms
                                                    then he would provide no assistance. Since COs are the
                                                    custodians of contract records, we identified appropriate
                                                    individuals to interview through them.
OST stated that many COs, COTRs, and/or             We did not review all contracts and/or task orders in the
program managers were not interviewed.              universe. As a result, we did not speak with every CO and/or
                                                    COTR. Instead, we spoke with COs and COTRs for the
                                                    specific contracts and/or task orders reviewed and interviewed
                                                    program officials they directed us to.
OST stated that CO’s files do not routinely         The CO is the custodian of the records and, as such, should
contain copies of contract deliverables.            have documentation supporting receipt and acceptance of
                                                    deliverables, including specific identification of each
                                                    deliverable and the date accepted by the government.
OST stated that it received and continues to use    Our report does not state that OST received no deliverables and
many quality deliverables received as a result of   we do not dispute that OST may have received deliverables on
the contracts reviewed. Further, the contractor     some contracts/task orders. Our concerns were that (1) we
was paid for hours expended to produce quality      could not always determine what was to be delivered by the
deliverables received by the government.            contractor and (2) when we could determine deliverables,
                                                    records were inadequate to identify what the contractor actually
                                                    delivered.

                                                    OST’s response acknowledged that it completed at least one
                                                    deliverable internally. Despite the fact that OST completed the
                                                    deliverable, the contractor was paid $20,000 more than the full
                                                    contract amount. In our opinion, this clearly supports the
                                                    Report’s assertion that the government did not always receive
                                                    full value on contracts.




                                                        22
                                                                                                    Appendix 6

OST expressed concern that OIG had not               We did not review all contracts/task orders in the contract
obtained all available documentation.                universe. As a result, there may have been deliverables
Specifically, OST stated that OIG had not            associated with contracts in the universe which we did not
collected documents from all available COs and       request or review. For those contracts/task orders reviewed, we
COTRs and, in one case, declined to review           requested all available documentation from the CO as the
“boxes full of deliverables” related to task order   official custodian of the contract records. Additionally, we
10 which OIG was informed about during an            requested documentation from COTRs and program officials
interview.                                           that the CO directed us to.

                                                     We spoke with both COTRs assigned to monitor task order 10.
                                                     The first COTR’s records were included in records previously
                                                     seized by OIG Investigations. We reviewed those records with
                                                     her. We were told that, if given time, the COTR may be able to
                                                     recreate deliverables. The second COTR told us that the
                                                     deliverables were vague and needed to be inferred. He stated
                                                     that his files were not organized by deliverable or statement of
                                                     work and that he did not track deliverables. Instead, he stated
                                                     he had a “feeling” that things were fine and the work product
                                                     was satisfactory. Given the vagueness of the deliverable, the
                                                     COTR’s own assertion that deliverable were “not known” and
                                                     that he did not track them, we saw no value in reviewing his
                                                     files and trying to recreate work performed by the contractor.
OST stated that, in June 2007, subsequent to the     We independently reviewed the five boxes provided in June
draft report, it provided OIG copies of              2007. OST declined our request to explain the documents
deliverables associated with the DOPs and an         provided. We also reviewed the nine boxes of documents
OST staff explained the documents to OIG.            provided as Attachment 3 in July 2007. After reviewing the
                                                     documentation in these fourteen boxes, we reached the
Further, OST stated that based on subsequent         following conclusions.
review of COTR’s files and discussions with
program managers it “easily” located nine boxes      o    Contract CMK99000001 Task Order 9. No
of contract deliverables which OST included as            documentation was provided for 5 of the 13 stated DOP
Attachment 3 to its response in July 2007.                deliverables. For the remaining 8 DOPs, we saw evidence
                                                          that the contractor worked and provided numerous drafts.
                                                          However, we saw no evidence that the contractor
                                                          delivered, and OST accepted, final versions of the DOPs.
                                                          We know that 3 of the 8 were not completed because OST
                                                          later contracted for their completion under contract
                                                          NBCTP040428. In several cases, we found what appeared
                                                          to be final DOPs. However, we saw no transmittal
                                                          documentation indicating they were provided by the
                                                          contractor and they were all marked as updated since
                                                          contract expiration. Therefore, we concluded that these
                                                          documents were not what the contractor delivered.

                                                          Additionally, without transmittal documentation, it was
                                                          difficult to validate that documents provided were contract
                                                          deliverables. For example, the contract was signed in
                                                          1999 and the contractor became a business in 1996.
                                                          However, OST included a document dated 1994 as a
                                                          contract deliverable. Without a transmittal, receipt, or
                                                          acceptance document, we were unable to determine how
                                                          this document was a contract deliverable.

                                                     o    Contract CMK99000001 Task Order 10. The task order’s
                                                          stated deliverable was vague. As a result, we could not
                                                          determine exactly what the contractor was to deliver. Our


                                                         23
                                                                                                    Appendix 6

                                                          review of the documentation provided supports that the
                                                          government did receive items from the contractor.
                                                          However, the transmittal documentation clearly states that
                                                          the items provided were in response to specific requests
                                                          from OST personnel, versus in response to the contract’s
                                                          stated deliverable. We did not identify any contract
                                                          modifications adding the “requested” items as
                                                          deliverables. Further, we did not find acceptance
                                                          documentation by the government. As a result, we could
                                                          not validate that the government received appropriate
                                                          value for this task order.

                                                     o    Contract SMK00050058. The contract’s stated
                                                          deliverables were too vague for OIG to accurately
                                                          determine what the contractor was to deliver. Review of
                                                          documentation provided supports that the contractor did
                                                          perform work on this contract. However, neither
                                                          transmittal nor receipting documents were provided for
                                                          the major items OST stated were contract deliverables.
                                                          Further, one document provided clearly stated that OST,
                                                          and not the contractor, completed the work. Therefore, in
                                                          the absence of transmittal or receipting documents, we
                                                          were unable to validate that other documents were indeed
                                                          delivered by the contractor.

                                                    We updated the report to include our analysis of this additional
                                                    documentation.
OST and NBC stated that a majority of issues        These new controls were not in place during the period of the
involve older contracts and relate to past          contracts we reviewed. However, we updated the report to
practices which are no longer applicable. A list    indicate that OST and NBC have asserted that new controls
of improvements implemented over the last 2         have been implemented which would preclude these conditions
years was included as Attachment 2 to its           from occurring on new acquisitions.
response.

                                                    Background
OST stated that there were actually six OST          In a subsequent fax dated July 30, 2007, OST stated that there
contracts and four contracts with the OHTA.          were indeed three contracts with OHTA and the fourth contract
                                                     in question was indeed an OST contract.
OST stated that they also utilized GovWorks and      We deleted reference to NBC Denver as sole provider of
NBC Ft. Huachuca in addition to NBC Denver.          contract services for OST.
OST and NBC stated that the FAR specifically         While there are a variety of ways that contracts can be
identifies time-and-materials type contracts in a    categorized, FAR 16.101 states, “The contract types are
third distinct category.                             grouped into two broad categories: fixed-price contracts (see
                                                     Subpart 16.2) and cost-reimbursement contracts (see Subpart
                                                     16.3).”
OST stated that time-and-materials type contract     FAR 16.601 states that time-and-materials contracts may be
are authorized and used when the deliverables        used only when it is not possible at the time of placing the
cannot be clearly defined.                           contract to estimate accurately the extent or duration of the
                                                     work or to anticipate costs with any reasonable degree of
                                                     confidence. The contract in question had clearly defined
                                                     deliverables – DOPs.




                                                         24
                                                                                                      Appendix 6


                                     CD&L Failed to Convey Deliverables
OST and NBC stated that contract                      The contract did not designate that it was a time-and-materials
NBCTP040428 was “clearly” a time-and-                 contract and we relied on the NBC Senior Procurement Analyst
materials contract. Both acknowledge that an          to properly classify the contract. We updated the report to
NBC Senior Procurement Analyst did originally         indicate that OST and NBC have since stated that contract
incorrectly tell OIG that the contract was a fixed-   NBCTP040428 was a time-and-materials contract. We have
price contract.                                       also conducted additional analysis of the contract using the
                                                      correct contract type and have updated our report conclusions
                                                      accordingly.
OST stated that contract NBCTP040428 was not          The requisition for Modification 1 states that this is a separate
amended to include a third DOP but to                 DOP for Osage. Modification 1 makes no reference to the
encompass required changes in certain sections of     Disbursing DOP. Instead, Modification 1 only references a
the Disbursing DOP.                                   DOP for the Osage Agency.
OST and NBC stated that Contract                      Contract NBCTP040428 required the contractor’s invoices to
NBCTP040428 payments were made from                   detail the time each employee spent on each subtask or phase of
appropriate invoices in accordance with the           work. However, the COTR accepted the invoices even though
contract terms and condition.                         they did not detail the subtask and phases of work.

   Poor or Missing Contracting Records Prevented Identification and Evaluation of Deliverables
OST stated that contract NBCDOP00346, listed          On October 4, 2006, the Audit Liaison for Indian Affairs,
as a contract for BIA, was actually a purchase        provided a list of BIA procurement actions with CD&L that
order issued by NBC on behalf of OST.                 identified this as a BIA contract. BIA attempted to locate the
                                                      contract without success. Since BIA originally identified the
                                                      contract as its own, we did not request the contract from OST.
                                                      We updated the report accordingly.
OST stated that it had located a copy of              We revised the report to indicate that OST and BIA have
NBCDOP00346, and BIA stated it had located a          subsequently located copies of these contracts.
copy of K6002K1413, both of which OIG had
reported as missing.
OST stated that contracts, i.e., terms and            Our report clearly supports that contracts were so poorly written
conditions, written by NBC were in compliance         that we could not tell what was to be delivered. Therefore, we
with FAR.                                             could not tell whether OST received quality deliverables on
                                                      time.
OST disagreed that contracts were not properly        Our report clearly supports that contracts were not properly
monitored and stated that COTRs and program           monitored. As a result, we could not tell whether OST received
managers are knowledgeable and aware of               appropriate value for funds spent. For example, Task Order 9
deliverables received.                                was for 13 DOP deliverables. OST has stated that since the task
                                                      order was a time-and-materials contract, the COTR did not need
                                                      to monitor the contractor’s progress toward completion of task
                                                      order deliverables. However, payment of $887,840 of the
                                                      $1,204,500 task order total when OST could not support the
                                                      government received any of the task order deliverables is, in our
                                                      opinion, excessive. Had the COTR adequately monitored the
                                                      contract, he would have been aware that the contractor was not
                                                      progressing satisfactorily toward completion of contract
                                                      deliverables and either taken corrective action or terminated the
                                                      task order before expending almost $1 million.
OST stated that there was nothing in the contract     We updated the report to more closely match OST’s wording in
file to support that amounts paid were higher         the JOFOC.
because the government did not review draft
DOPs timely.




                                                          25
                                                                                                      Appendix 6

OST stated that there is nothing in the contract      While it is true that contracting officials are required to abide
files to substantiate senior OST officials            by regulatory requirements, we remain concerned about undue
pressured contracting officials, although they        influences that would impair or intimidate any of these officials
acknowledged that there may have been                 from performing their respective fiduciary responsibilities.
disagreements between contracting and program         Given the nature of the concerns expressed to us, we would not
officials as part of normal business. Instead, OST    expect the concerns to be documented in the official contracting
pointed out that contracting officials are required   records.
to abide by their regulatory requirements.

                 Sole-Source Contracts Were Awarded Without Adequate Justifications
NBC stated that its sole-source award of contract     We updated the report to clearly state that a legal sufficiency
NBCTP040428 (the only one NBC awarded) was            review was completed. However, a legal sufficiency review
done properly in accordance with FAR. NBC             does not validate the accuracy of the information stated by the
justified and obtained approval from the Solicitor    program office. Instead, the Solicitor validates that all
for the follow-on sole-source contract.               information required by FAR is addressed in the justification.
                                                      The Solicitor must rely on the program officials’ certification
                                                      that the information provided is accurate.

                       Added Work Sole-Sourced Through Contract Modifications
OST stated that contract CMK9900001 had 60            The contract was ongoing during the course of the audit. We
modifications.                                        updated the report to show the cut off date we used to arrive at
                                                      57 modifications.
OST stated that Contract CMK99000001 was              The initial letter contract was signed on October 16, 1998, and
never administered by BIA.                            the definitized contract on January 7, 1999. Both were signed
                                                      by a BIA contract office employee. While the definitized
                                                      contract does indicate that NBC is the contracting office, the
                                                      fact that a BIA employee signed as the contracting officer
                                                      would indicate to us that the contract was being administered by
                                                      BIA.
OST disagreed with our conclusion that                The FAR prohibits modifications if they add tasks outside the
modifications to contract CMK99000001 resulted        original scope of the contract or add significant funding. Forty-
in an improper sole-source. Instead, OST              two modifications to contract CMK99000001 were for work
asserted that modifications were issued to close      outside the contract’s original scope. Five of the remaining
out open tasks and to allow time to put new           fifteen added significant funding. These modifications were not
contracts in place. Additionally, OST stated that     just closing out open tasks.
there is no FAR prohibition against
modifications.

                     Contract Sole-Source Awarded Under the Guise of Competition
OST disagreed that contract SMK00050058 was           Because the award is currently under investigation, we will not
improperly awarded. Instead, the contractor was       amend the report to provide additional information.
selected as best value and the contractor with the
lower bid was properly excluded because of
unreasonably low hours included in its bid.




                                                          26
